Audit of USAID/Mongolia’s Participant
Training Activities


Report No. 5-438-04-001-P

November 25, 2003




              Manila, Philippines
November 25, 2003


MEMORANDUM
FOR:          USAID/Mongolia, Jonathan S. Addleton

FROM:         Acting RIG/Manila, George R. Jiron, Jr. /s/

SUBJECT:      Audit of USAID/Mongolia’s Participant Training Activities (Report
              No. 5-438-04-001-P)

This memorandum transmits our report on the subject audit. We reviewed your
comments to the draft report, made some revisions based on them, and included the
comments (without attachments) in their entirety as Appendix II.

This report includes seven recommendations to improve controls and strengthen
USAID/Mongolia’s participant training activities. Based on your comments to the
draft report, we consider management decisions have been made on all seven
recommendations. Final actions have been taken for Recommendation Nos. 1, 4,
and 7 and can be considered closed on report issuance. For Recommendation Nos.
2, 3, 5, and 6, management decisions have been reached but final actions are
pending. USAID/Mongolia should coordinate final action on Recommendation
Nos. 2, 3, 5, and 6 with USAID’s Office of Management Planning and Innovation.

I want to express my sincere appreciation for the cooperation and courtesies
extended to my staff during the audit.




                                                                               1
(This page intentionally left blank.)




                                        2
Table of   Summary of Results                                                 5
Contents
           Background                                                         5

           Audit Objectives                                                   7

           Audit Findings                                                     7

                  Has USAID/Mongolia complied with selected requirements
                  for administering participant training conducted in the
                  United States?                                              7

                         Participant Trainees Did Not Travel Exclusively
                         with J-1 Visas                                       8

                         Records of Participant Trainees Were Not Always
                         Complete                                            9

                  What have been the non-returnee rates for overseas
                  participants from Mongolia who were trained in the
                  United States and did USAID/Mongolia take appropriate
                  actions when participants failed to return to Mongolia?    11

                         Procedures Needed to Track Participant
                         Trainees and Recover Training Costs                 12

                  What additional actions should USAID/Mongolia take to
                  meet new requirements for selecting, monitoring, and
                  reporting on participants training in the United States?   14

                         Mission Guidance on Participant
                         Training Needs Updating                             14

                         Conditions of Training Forms
                         Need to be Completed                                15

           Management Comments and Our Evaluation                            16

           Appendix I - Scope and Methodology                                19

           Appendix II - Management Comments                                 21




                                                                                  3
(This page intentionally left blank.)




                                        4
Summary of   The objectives of this audit were to determine (1) whether USAID/Mongolia
Results      complied with selected requirements for administering its participant training
             program; (2) whether any participant trainees from Mongolia did not return from
             the United States and, if so, whether USAID/Mongolia took appropriate actions;
             and (3) what additional actions USAID/Mongolia should take to meet new
             participant training program requirements (see page 7).

             USAID/Mongolia complied with one of the selected requirements related to the
             use of USAID’s official participant training database. However, it did not comply
             with requirements that participant trainees travel on the proper type of visa (see
             page 8), and that appropriate records be maintained on participant trainees (see
             page 9).

             According to Mission records, only 5 of 106 participant trainees failed to return to
             Mongolia (see page 11). Although it appropriately reported that the five
             participant trainees did not return to Mongolia, USAID/Mongolia needed to
             develop procedures to track participant trainees and to recover training costs from
             non-returnees (see page 12).

             To meet new participant training program requirements, USAID/Mongolia should
             (1) update its guidance governing participant training (see page 14), and (2) use
             Conditions of Training forms for all participant trainees (see page 15).

             To help USAID/Mongolia strengthen its participant training program, we made
             seven recommendations addressing the items discussed in this report.

             In responding to our draft report, the Mission stated it agreed with the seven
             recommendations. The Mission provided an opinion from its Regional Legal
             Advisor concluding there is no legal basis for recovering $135,552 in training
             costs from the two non-returnees. We consider management decisions have been
             made on all seven recommendations. The Mission’s comments (without
             attachments) are included in their entirety in Appendix II (page 21).

             Final actions have been taken for Recommendation Nos. 1, 4, and 7. For
             Recommendation Nos. 2, 3, 5, and 6, management decisions have been reached
             but final actions are pending.


Background   Each year USAID’s participant training programs send approximately 6,000
             people to the United States.1 According to USAID, “participants” are host
             country residents or foreign nationals taking part in a structured learning activity.
             Participant training is considered as either short-term or long-term (9 months or
             more) and it encompasses a range of learning activities such as study tours,

             1
                 Participant training can also be conducted in-country or in a third country.


                                                                                                5
conferences, and academic training. These activities expose participant trainees
to outside expertise and ideas that can be exported back to their home countries
for developmental purposes. Participant training sponsors (USAID and its
missions) have the choice of managing training or arranging for training to be
conducted by a host country non-governmental organization or private voluntary
organization. USAID collects and reports data on its participant trainees through
its Training Results and Information Network (TraiNet) database.

As a result of homeland security concerns, increased attention is being given to all
visitors to the United States—including participant trainees. For example, new
regulations by the Immigration and Naturalization Service (INS) and the
Department of State established more specific procedures for issuing J-1 visas,
monitoring exchange visitors, and recording various status changes such as a new
address. The INS also developed a database known as the Student and Exchange
Visitor Information System (SEVIS) which was designed to track the status and
location of all foreign students in the United States on one of three types of visas
including J-1 visas. Beginning February 15, 2003, sponsors were required to feed
into SEVIS data requests for J-1 visa applications.

To implement these changes, USAID, in April 2003, published a document titled
The Complete Guide-USAID Visa Compliance. This guidance instituted more
centralized control over USAID’s participant training activities. Under the new
process, each participant trainee’s sponsor enters information for the J-1 visa
application into TraiNet. The information in TraiNet is automatically fed into
USAID’s Visa Compliance System, a secure web-based system which facilitates
data interchange between TraiNet and SEVIS. The application data must be
reviewed by a U.S. direct hire at the mission level and, if approved, is forwarded
to USAID/Washington for submission to SEVIS.

USAID/Mongolia’s participant training program is administered by a Foreign
Service National employee. The employee coordinates the program with the
Mission’s implementing partners.2 The Mission also utilizes a contractor in the
United States to support and monitor participant trainees while they are in that
country. In addition to sponsoring its own training activities, USAID/Mongolia
provides administrative support to a centrally-funded participant training activity.
The training sponsored by the Mission ranged from long-term activities such as
the pursuit of academic degrees to short-term activities such as a seminar on
financing housing loans. From October 1999 through May 2003, 89 participants
from Mongolia were sent to the United States for training.




2
    Implementing partners are contractors and grantees who implement the Mission’s assistance
    programs.


                                                                                           6
Audit Objectives This audit was conducted as part of the Office of Inspector General’s worldwide
                    audit of USAID’s participant training activities. The audit was designed to answer
                    the following questions:

                    •   Has USAID/Mongolia complied with selected requirements for administering
                        participant training conducted in the United States?

                    •   What have been the non-returnee rates for overseas participants from Mongolia
                        who were trained in the United States and did USAID/Mongolia take
                        appropriate actions when participants failed to return to Mongolia?

                    •   What additional actions should USAID/Mongolia take to meet new requirements
                        for selecting, monitoring, and reporting on participants training in the United
                        States?

                    Appendix I describes the audit’s scope and methodology.


Audit Findings      Has USAID/Mongolia complied with selected requirements for administering
                    participant training conducted in the United States?

                    In administering participant training conducted in the United States,
                    USAID/Mongolia complied with a requirement to establish roles for personnel
                    entering data, verifying data and approving participant training applications.
                    However it needs to make improvements in order to have a more effective program
                    and to comply with other requirements.

                    In April 2003, USAID published a document titled The Complete Guide-USAID
                    Visa Compliance. The guide defined the roles that needed to be filled by Mission
                    personnel and implementing partners to administer participant training events.
                    There were three roles defined in the guide that were applicable to the Mission –
                    data entry, data verification, and participant training application approval. At
                    USAID/Mongolia, staff members were identified for and assigned to each of those
                    roles. Additionally, the Mission appropriately assigned data entry roles to
                    implementing partners.

                    However, USAID/Mongolia did not comply with other requirements related to the
                    use of J-1 visas and maintaining complete participant training records. The
                    following sections discuss the areas where USAID/Mongolia needs to improve its
                    administration of participant training conducted in the United States.




                                                                                                     7
Participant Trainees Did Not Travel
Exclusively with J-1 Visas

Contrary to USAID policy, participant trainees from Mongolia traveled to the
United States on other than J-1 visas.3 This has occurred because B visas were
inappropriately sought for participant trainees.4 As a result, the federal
government may not have tracked all participant trainees traveling or studying in
the United States, and trainees did not become subject to the requirements
associated with obtaining a J-1 visa.

Automated Directives System (ADS) 253.5.6(a) requires any foreign national
attending a training activity in the United States, who is sponsored fully or in part
with United States government funds, to enter the United States on a J-1 visa.
This requirement applies to training of any length.

The audit reviewed the records for all 37 participant trainees from fiscal year
2002. Of the 37, 24 participant trainees traveled to the United States on J-1 visas.
However, 13 traveled on B visas when they should have traveled on J-1 visas.
The inappropriate use of B visas occurred for one or more of the following three
reasons:

•   Some implementing partners believed that if USAID did not pay for a
    participant’s travel and event costs, they could not require the participant to
    comply with J-1 visa requirements. For example, a grantee sent six
    participant trainees and one staff member to a trade show in the United States.
    The participants paid their own travel costs. However, USAID funds paid the
    cost of organizing the activity and the expenses incurred by the staff member
    to escort the participants. Because the costs to attend the trade show were
    funded in part with USAID funds, the participant trainees should have
    obtained J-1 visas.

•   USAID/Mongolia and its implementing partners believed that certain visits to
    the United States were for business purposes and not participant training. For
    example, in February 2002 a contractor sent two Mongolian government
    officials to attend a two-day energy conference in California. Although
    USAID funded the costs, the short duration and the purpose of the visit
    (attending a conference) led the contractor and USAID/Mongolia to believe
    that the visit was business travel and not participant training. Further, in this
    particular case, B visas were also sought because the conference was to begin
    in a few days and B visas could be obtained more quickly than J-1 visas.



3
  J-1 visas are nonimmigrant visas issued to foreign nationals for training, such as USAID’s
  participant training program.
4
  B visas are nonimmigrant visas issued to persons wanting to enter the United States temporarily
  for business, pleasure or medical purposes.


                                                                                               8
•   Some implementing partners sought B visas for their participant trainees
    because they felt that the requirements for obtaining J-1 visas, such as the
    requirement to return to Mongolia after training and reside there for two years,
    were too onerous for short-term training activities.

Because of the inappropriate use of B visas, information needed to monitor the 13
participant trainees during their training was not recorded in the databases
established for that purpose. As described in the next section, none of the 13 were
entered into TraiNet—USAID’s official participant training database. Further,
since they were not included in TraiNet, information on them would not have
been fed into the Student and Exchange Visitor Information System (SEVIS)
through USAID’s Visa Compliance System. Moreover, these 13 participant
trainees were not obligated to abide by the requirements associated with the J-1
visa such as the two-year residency requirement as they should have been.

To ensure that all participant trainees that should be monitored are monitored and
that they are subject to the appropriate visa requirements, we are making the
following recommendation:

       Recommendation No. 1: We recommend that USAID/Mongolia
       comply with USAID’s Automated Directives System
       requirement to obtain J-1 visas for all individuals sent to the
       United States for participant training.

Records of Participant Trainees
Were Not Always Complete

USAID/Mongolia’s participant training records were not always complete.
Participants attending training in the United States were not always reported in the
monitoring database. Additionally, Mission files did not contain all participant
trainee documentation required by USAID policies. This occurred for a variety of
reasons including the fact that participant trainees traveled to the United States on
B visas when they should have traveled on J-1 visas. As a result, the number of
participant trainees was underreported and some participant trainees were not
being appropriately tracked and monitored. Further, there was no assurance that
participant trainees met medical, language and other requirements before traveling
to the United States.

Monitoring Database Was Not Complete – Not all participant trainees from
Mongolia were entered into TraiNet. According to ADS E253.5.2(e), TraiNet is
USAID’s official database for tracking and monitoring participant trainees.
However, the number of participant trainees in the fiscal year 2002 TraiNet report
for Mongolia did not match USAID/Mongolia records. The table below compares
data in the TraiNet report to a list compiled manually by Mission personnel.




                                                                                   9
                     Comparison of Participant Trainee Data
                            (For Fiscal Year 2002)

                        J-1 visas       J-1 visas      B visas
                       Short-term      Long-term     Short-term
                       participants   participants   participants   Totals
           TraiNet          19              5              0         24
           Mission          19              5             13         37

As the table shows, the two data sources did not match because the Mission and
its implementing partners did not enter into TraiNet information on participant
trainees who traveled to the United States on B visas. The Mission did not do so
because it believed ADS 253 did not require that B visa holders be entered into
TraiNet. However, as noted on pages 8 through 9 of this report, the 13 participant
trainees should have obtained J-1 visas and not B visas. Had they obtained the
appropriate visa, they would have been entered in TraiNet and the two data
sources would have matched. Further, although ADS 253 does not require that B
visa holders be entered into TraiNet, it does not prohibit their inclusion.

As a result, USAID’s official participant training database was underreporting the
number of participant trainees from Mongolia, and it was not being used to track
and monitor some participant trainees who should have been tracked and
monitored. We are not making a recommendation on the monitoring database
because Recommendation No. 1 at page 9 of this report should resolve that issue.

Participant Training Files Were Not Complete – The Mission did not maintain
all the documentation required for participants whose training in the United States
was wholly or partially financed by USAID. Specifically, ADS 253.5.6 requires
(1) the purchase of health and accident coverage, (2) a certification of medical
eligibility except when a health and accident coverage policy has been purchased
for training programs of less than 30 days, and (3) evidence of proficiency in
English. Additionally, ADS E253.5.2(b) requires participants to obtain individual
taxpayer identification numbers.

Contrary to the ADS requirements, the Mission either did not maintain files or
maintained incomplete files for participant trainees. Of 37 participant trainees in
fiscal year 2002: 24 traveled with J-1 visas and 13 traveled with B visas. For the
24 with J-1 visas, the Mission had documentation of health and accident coverage,
and certifications of medical eligibility. However, none of the 24 files contained
evidence that the participant trainee had obtained an individual tax identification
number, and 14 did not have certifications of English proficiency. The Mission
did not maintain files for the 13 participant trainees with B visas.

For the 24 participant trainees issued J-1 visas, the Mission did not ensure that its
files contained all the necessary documentation for three principal reasons. First,
it believed its training support contractor was responsible for maintaining some
documentation for the five participant trainees who went to the United States for


                                                                                  10
long-term training. However, according to its mission order on participant
training, USAID/Mongolia is the primary repository for records of past and
current participant trainees. Second, the Mission did not require the 19 participant
trainees who went to the United States for short-term training to obtain tax
identification numbers because it believed the participants would have returned to
Mongolia before being issued a number. Third, the Mission did not approve and
document the waiver for the language verification requirement in the training files
for the 14 short-term participant trainees.5

For B visa holders, the Mission did not maintain files for them because ADS 253
does not impose documentation requirements for those visas. However, as noted
on pages 8 through 9 of this report, the 13 participant trainees should have been
issued J-1 visas and, thus, should have been subject to the documentation
requirements for such visas.

As a result of the incomplete documentation, there was no assurance that
participant trainees met medical, language and other requirements before traveling
to the United States.

We are not making a recommendation on the lack of training files for participant
trainees who traveled to the United States with B visas because Recommendation
No. 1 at page 9 of this report should resolve that issue. However, the issue of
incomplete training files for the 24 participants who traveled with J-1 visas needs
addressing. Consequently, we are making the following recommendation:

          Recommendation No. 2: We recommend that USAID/Mongolia
          establish procedures to ensure that training files contain
          evidence of English proficiency and tax identification numbers.

What have been the non-returnee rates for overseas participants from
Mongolia who were trained in the United States and did USAID/Mongolia
take appropriate actions when participants failed to return to Mongolia?

The non-returnee rate for overseas participant trainees from Mongolia who trained
in the United States from October 1998 through May 2003 was 5 out of 106
participants or 4.72 percent.

•     Two Mission-sponsored participant trainees who traveled with J-1 visas to the
      United States for long-term training did not return to Mongolia.

•     Three participant trainees who traveled to the United States with B visas to
      attend a trade show in fiscal year 2001 did not return to Mongolia. (See the

5
    According to management comments, of the 14 participants who did not have English
    proficiency tests on file, 12 did not need to because they were accompanied by translators, one
    had an advanced degree from an English university, and another was known to have excellent
    English language skills.


                                                                                                11
   discussion on participant trainees that did not travel exclusively with J-1 visas
   beginning at page 8 of this report.)

USAID/Mongolia complied with USAID policy requiring it to report all non-
returnees to the appropriate USAID bureau. Although it took appropriate action
in reporting the non-returnees, the Mission needs to develop procedures to track
participant trainees and to seek reimbursement from non-returnees.

Procedures Needed to Track Participant
Trainees and Recover Training Costs

The Mission needs to improve the procedures it uses to ensure the timely return of
participant trainees to Mongolia and to track the post-training whereabouts of
non-returnees. In addition, the Mission needs procedures to seek reimbursement
for the training costs it incurred from participant trainees who did not return to
Mongolia.

Tracking Participant Trainees – According to ADS 253.5.2(c), sponsoring units
must track participant trainees for timely return to their workplace or professional
setting in their home countries and continue to track their post-training
whereabouts. For these tracking tasks, the Mission relied on its training
contractor based in the United States. However, the contractor was not required
to verify that participant trainees actually returned to their workplace or
professional setting in Mongolia. With respect to non-returnees, the contractor
was not required to track their post-training whereabouts. To illustrate, neither
the contractor nor the Mission had current information on the whereabouts of the
five non-returnees mentioned above.

Without procedures to track the timely return of participant trainees to Mongolia
and the current addresses of non-returnees, the Mission will not be able to update
TraiNet as required by The Complete Guide-USAID Visa Compliance. The
Mission would also have difficulty in attempting to recover the training costs it
incurred for non-returnees (see following discussion).

The Mission agreed that it could improve its procedures. For example, it is
considering requiring all participant trainees to physically visit the Mission to
verify their return to Mongolia. Nonetheless, we are making the following
recommendation:

       Recommendation No. 3: We recommend that USAID/Mongolia
       develop procedures in coordination with implementing
       partners to track participant trainees’ timely return to
       Mongolia and to locate and track participant training non-
       returnees.




                                                                                 12
Recovering Training Costs – USAID/Mongolia did not seek reimbursement for
the training costs it incurred for participant trainees who did not return to
Mongolia to fulfill their two-year, home-residency obligation. Two of the five
non-returnees signed a Conditions of Training form (Form AID 1381-6) before
traveling to the United States on a J-1 visa as required by ADS 253.5.2.6 One of
the conditions on that form requires a participant trainee to return to Mongolia
immediately following training and remain for two years before attempting to
immigrate to or work in the United States. However, the two participants did not
return to Mongolia. As a result, USAID/Mongolia incurred $135,552 in costs for
the two non-returnees to acquire skills that were not used to benefit their home
country or further USAID’s development objectives.

•     A participant trainee completed a masters program at Columbia University in
      New York City and an internship at the World Bank in Washington, D.C. The
      participant trainee did not return to Mongolia immediately after completing
      his education and internship in June 2002. Instead, through World Bank
      sponsorship, he obtained a G-4 visa (a visa for officials and employees of
      international organizations) which allowed him to stay in the United States
      until June 2005. The participant trainee’s last known address was in the
      Washington, D.C. area. USAID/Mongolia paid $87,193 to train him.

•     A participant trainee completed a journalism program and an internship at the
      University of Missouri in Columbia, Missouri from August 2000 to June
      2002. During his internship (February 2002), the participant trainee was
      granted political asylum by the Immigration and Naturalization Service.
      Accordingly, he did not return to Mongolia. His last known address was in
      Columbia, Missouri. USAID/Mongolia paid $48,359 to train him.

USAID/Mongolia did not seek reimbursement from the two non-returnees
because it did not have mission-specific policies and procedures to (1) confirm the
timely return of participant trainees, (2) track non-returnees, and (3) seek
reimbursement from non-returnees. To its credit, the Mission had recognized the
problem; its Federal Managers’ Financial Integrity Act certification for fiscal year
2002 included a recommendation that the Mission explore options to recover
funds from non-returnees. However, the Mission had not acted on the
recommendation. Consequently, we are making the following recommendations:

          Recommendation No. 4: We recommend that USAID/Mongolia
          determine whether the $135,552 in training costs can be
          recovered from the two non-returnees who signed Conditions
          of Training forms.




6
    The other three non-returnees who traveled on B visas paid their own travel and event costs.
    Therefore, there were no training costs that the Mission could recover.


                                                                                             13
           Recommendation No. 5: We recommend that USAID/Mongolia
           develop and implement procedures to seek reimbursement of
           training costs from non-returnees.

What additional actions should USAID/Mongolia take to meet new
requirements for selecting, monitoring, and reporting on participants
training in the United States?

USAID/Mongolia should take additional actions to meet the new requirements for
selecting, monitoring and reporting on participants training in the United States.
Specifically, the Mission needs to:

•     Update its guidance on participant training.

•     Use Conditions of Training forms for all participant trainees.

In response to the new requirements, USAID uses various systems to process J-1
visa applications. First, USAID’s sponsors enter information for the J-1 visa
application into TraiNet. Second, information in TraiNet is automatically fed into
USAID’s Visa Compliance System, which facilitates data interchange between
TraiNet and a third system. This third system is known as the Student and
Exchange Visitor Information System, which was designed to track the status and
location of all foreign students in the United States. Using this new process
between February 15, 2003 and May 30, 2003, USAID/Mongolia processed 15
J-1 visa applications without experiencing major difficulties.

Mission Guidance on Participant
Training Needs Updating

USAID/Mongolia had established policies and procedures for its participant
training activities. This guidance, however, should be updated because its
provisions on invitational travel and extended stays in the United States were not
in accordance with ADS 253. This resulted in practices which did not conform to
the ADS.

Invitational Travel - Mission Order No. 501, dated January 1, 2001, permits
USAID-sponsored foreign nationals to use invitational travel status to attend
participant training in the United States.7 In fiscal year 2001, eight participant
trainees from the Mongolian government traveled to the United States using
invitational travel status. However, ADS E253.5.2(d) prohibits the use of
invitational travel status for a participant trainee going to the United States for any


7
    The ADS defines invitational travel as authorized travel for individuals either not employed or
    employed intermittently in Government service as consultants or experts…and for individuals
    serving without pay…when they are acting in a capacity that is directly related to, or in
    connection with, official activities of the Government.


                                                                                                14
formal or informal learning objective, who is wholly or partly sponsored by
USAID.

Extended Stays in the United States - Mission Order No. 501 also allows
participant trainees traveling to the United States on J-1 visas to extend their stay
in the United States beyond their training period if they hold other visas that
permit them to stay longer.8 Thus, per the Mission Order a participant trainee
could extend his stay in the United States before returning to his home country.
However, this conflicts with ADS 253.5.6(a) which states that other visas (B
visas) can only be used for short trips after the participant trainee has returned to
his home country to fulfill the two-year, home-country residency requirement.

To ensure that USAID/Mongolia’s policies and practices conform to USAID
guidance, we are making the following recommendation:

           Recommendation No. 6: We recommend that USAID/Mongolia
           update Mission Order Number 501 to bring it into compliance
           with Chapter 253 of USAID’s Automated Directives System.

Conditions of Training Forms
Need to be Completed

Some participant trainees were not informed of conditions placed on their training
as required. ADS 253.5.2(b) stipulates that participant trainees should complete a
Conditions of Training form (Form AID 1381-6). This form spells out
commitments that the participant trainee makes by accepting training from
USAID. These commitments include:

•     Returning home immediately following the training and remaining for two
      years before attempting to immigrate to or work in the United States.

•     Traveling on a J-1 visa.

•     Limiting USAID’s liability for medical costs.

Although the Mission required participant trainees undergoing long-term training
to sign the form, six of seven participant trainees who traveled to the United
States on J-1 visas for short-term training did not sign the Conditions of Training
form. These participant trainees traveled to the United States in fiscal year 2003,
but before May 2003. This occurred because the Mission’s participant training
coordinator did not know the requirement for remaining home for two years


8
    Two situations that may extend participants’ stay past the training period are: 1) when a return
    date after the training period is agreed to by all parties in the Conditions of Training form, and
    2) if return travel is completed within a 30-day grace period following completion of the
    training program in the United States.


                                                                                                  15
                 before attempting to immigrate applied to short-term training as well as long-term
                 training.

                 This condition was identified during our fieldwork in May, while we were
                 observing the Mission implementing the new visa application process.           After
                 bringing the issue to its attention, the Mission immediately required 10 participant
                 trainees who were about to go to the United States for short-term training to sign a
                 Conditions of Training form.

                 Without a signed form, participant trainees traveling on J-1 visas for short-term
                 training in the United States may not be aware of the commitments related to their
                 training. Therefore, we are making the following recommendation:

                        Recommendation No. 7: We recommend that USAID/Mongolia
                        implement a procedure to require that all participant trainees
                        sign the Conditions of Training form.


Management       In response to our draft audit report, USAID/Mongolia provided written
Comments and     comments that were compiled by its Regional Controller located at
                 USAID/Philippines. These comments are included (without attachments) in their
Our Evaluation
                 entirety as Appendix II.

                 Management decisions have been reached and final actions have been taken for
                 Recommendation Nos. 1, 4, and 7.

                 Regarding Recommendation No. 1, a management decision has been made and
                 final action taken. The Mission says it will make every effort to comply though it
                 was unconvinced that every B visa it had issued was granted inappropriately. The
                 Mission referenced a case where a group of Mongolian business people attended a
                 trade fair in the United States and paid their own way. In this case, however, we
                 considered that the trade fair was for training purposes, and the event was paid in
                 part with United States government funds. We also considered the event to be
                 training because the Mission grantee requested visas from the United States
                 Embassy stating the Mongolians would gain knowledge, contacts, and
                 information from their trip. The ADS defines training as “the acquisition and
                 application of new skills, knowledge, or attitudes.” Furthermore, according to
                 ADS 253 guidance, individuals are considered participants if they are funded in
                 whole or in part by USAID. USAID/Mongolia funded the grantee to facilitate the
                 visit to the United States. Therefore, we determined the individuals to be
                 "participants" even though they received B visas when they should have been sent
                 on J-1 visas. The usage of the J-1 visa is particularly important these days to
                 ensure accountability for individuals entering the United States under any USAID
                 sponsorship. A procedure to ensure that J-1 visas are used for all individuals
                 traveling for training to the United States is critical.




                                                                                                  16
For Recommendation No. 4, the Mission provided an opinion from its Regional
Legal Advisor (RLA) concluding that there is no legal basis for recovering
$135,552 in training costs from the two non-returnees who signed Conditions of
Training forms. According to the RLA, the Conditions of Training form lacks a
term or condition that requires trainees to reimburse USAID for training costs if
they do not fulfill their agreement to return to Mongolia within the agreed upon
date. In addition, the RLA provided information which the OIG may use to
support a recommendation that USAID revise the language of the Conditions of
Training form to make the participant personally liable to USAID for the
reimbursement of all training costs if that participant does not fulfill the terms of
the agreement. Because the RLA’s opinion concluded there is no legal basis for
recovering the training costs, a management decision has been made and final
action has been taken on this recommendation.

Regarding Recommendation No. 7, the Mission agreed with the finding and
implemented a procedure to ensure that all participant trainees sign the required
Conditions of Training form. Therefore, final action has been taken.

Management decisions have been reached but final actions are pending for
Recommendation Nos. 2, 3, 5, and 6.

As for Recommendation No. 2, the Mission accepted this recommendation and
says it would make every effort to comply. The Mission said it needs to seek
guidance from Washington on how to obtain tax identification numbers for short-
term participants. The Mission noted that 14 participant trainees without English
proficiency language tests on file did not need to take the required tests.
According to the management comments, 12 participants had translators, one
participant had an advanced degree from an English university, and another was
known to have excellent English language skills. However, the training activity’s
Cognizant Technical Officer did not approve a waiver or exemption of the
language verification requirement as required by ADS 253 for the 14 short-term
participant trainees. While English testing may not always be necessary, the
Mission needs to ensure compliance with USAID policies. A management
decision has been made but final action is pending with respect to establishing
procedures to ensure that training files contain evidence of tax identification
numbers and English proficiency.

Regarding Recommendation No. 3, the Mission agreed with the finding, and will
make every effort to comply with this recommendation. A management decision
has been made; final action will take place when procedures are developed.

For Recommendation Nos. 5 and 6, the Mission agreed with the findings and
plans to update its Mission Order, including adding procedures to seek
reimbursement of training costs from non-returnees, once USAID updates
ADS 253. Therefore, management decisions have been made, but final actions
will be taken when USAID/Mongolia’s Mission Order is updated.


                                                                                  17
(This page intentionally left blank.)




                                        18
                                                                                     Appendix I

Scope and     Scope
Methodology   The Regional Inspector General/Manila conducted this audit in accordance with
              generally accepted government auditing standards. The fieldwork was done in
              Ulaanbaatar, Mongolia from May 13 through May 30, 2003.

              To answer the audit objectives, we reviewed training records for participant
              trainees sent to the United States from October 1999 through May 2003. With
              respect to non-returnee rates, however, we reviewed records for the period from
              October 1998 through May 2003. In addition, we interviewed officials from
              USAID/Mongolia, the United States Embassy, and implementing partners. Where
              appropriate, we tested the management controls relevant to participant training
              activities such as the use of J-1 visas, the maintenance of participant trainee
              records, and the reporting of non-returnees to the appropriate United States
              government agencies.

              Methodology

              To answer the first objective, we reviewed training records for all 37 participants
              sent to the United States in fiscal year 2002 and pertinent USAID and mission
              directives and guidance. Additionally, we interviewed officials from the Mission,
              the Consulate Office of the United States Embassy in Mongolia, and four
              implementing partners carrying out participant training activities in Mongolia. Also
              for fiscal year 2002, we reconciled TraiNet reports on participant trainees to
              supporting documents maintained by the Mission and the implementing partners.
              The materiality threshold for a qualified opinion was a 5 percent error or
              noncompliance rate and the threshold for an adverse opinion was 10 percent.

              To answer the second objective, we reviewed Mission records for participant
              trainees who did not return to Mongolia during the period from October 1998
              through May 2003, and related information from the Mission’s participant training
              support contractor in the United States. We also interviewed a former employee of a
              grantee and officials from the United States Embassy.

              To answer the third objective, we met with officials responsible for the Mission’s
              participant training activities and we observed the Mission implementing the new
              visa application process.

              Setting materiality thresholds for the second and third objectives was not
              necessary as they were descriptive in nature.




                                                                                               19
(This page intentionally left blank.)




                                        20
                                                                                Appendix II

Management
Comments:


          United States Agency for International Development

                           Office of Financial Management
                                  USAID/Philippines

MEMORANDUM

DATE:        November 14, 2003

TO:          Mr. Bruce Boyer, RIG/Manila


FROM:        Willard L. Grizzard, Regional Controller /s/

SUBJECT:     Responses of USAID/Mongolia and the Regional Legal Advisor on the Draft
             Audit Report of USAID/Mongolia’s Participant Training Activities

We are transmitting to you the responses of USAID/Mongolia and our Regional Legal Advisor
to the seven recommendations presented under subject audit, as follows:


Recommendation No. 1: We recommend that USAID/Mongolia comply with USAID’s
Automated Directives System requirement that J-1 visas be used exclusively for
individuals sent to the United States for participant training.

USAID/Mongolia’s Response:

“ Mission accepts this recommendation and will make every effort to comply with it. At the
same time, we remain unconvinced that every B-1 visa indicated was granted inappropriately.
Specifically, a case could be made that Mongolians from the business community who
attended trade fairs in the US under the Washington-managed GTN program in which the
Embassy played a facilitating role can plausibly be considered something under than
“participant trainees” They paid their own way. Also, USAID did not fund the trade fairs in
which they participated. What the USAID-funded GTN program did was to identify an
appropriate trade fair and then help facilitate the visit.”




                                                                                          21
Recommendation No. 2: We recommend that USAID/Mongolia establish procedures to
ensure that training files contain evidence of English proficiency and tax identification
numbers.

USAID/Mongolia’s Response:

“Mission accepts this recommendation and will make every effort to comply with it. However,
we will need to seek guidance from Washington on how to obtain tax identification numbers for
short term participants.

We note that the 14 participants who reportedly did not have English proficiency language
tests on file DID NOT NEED TO. If these include the 12 participants under the judicial reform
program that visited the US in May/June 2002, these participants were accompanied by a
Mongolia translator. Perhaps this should have been mentioned in the file. However, it should
also be noted in the audit report that the presence of a translator obviated the need for English
proficiency testing beforehand.

With regard to the remaining two participants that appear to be noted here, one had an
advanced degree from an Australian university and the second was a senior Mongolian
chosen by an Embassy selection panel for a high level Eisenhower Fellowship who was known
to have excellent English language skills. Our reading of the ADS is that in at least the first
case (advanced degree from English language university), an English competency test is not
required.

(See 253.5.6c: “Participants require no testing and are presumed competent in English for
sponsored study in the US if their secondary and post secondary education was conducted in
English, or if within the five years preceding USAID-sponsored enrollment they competed an
academic degree taught in the US, UK, Ireland Canada, Australia, New Zealand or another
facility teaching in English deemed appropriate by the sponsoring unit.”).”


Recommendation No. 3: We recommend that USAID/Mongolia develop procedures in
coordination with implementing partners to track participant trainees’ timely return to
Mongolia and to locate and track participant training non-returnees.

USAID/Mongolia’s Response:

“Mission accepts this recommendation and will make every effort to comply with it.”


Recommendation No. 4: We recommend that USAID/Mongolia determine whether the
$135,552 in training costs can be recovered from the two non-returnees who signed
Conditions of Training forms.




                                                                                               22
USAID/Mongolia’s Response:

“RLA John Power provided detailed input on this issue, which is available in both Ulaanbaatar
and Manila. His central point is this: “There is no legal basis for recovering the $135,552 in
training costs from the two non-returnee participant trainees who signed Conditions of Training
(CT)…there is no term or condition in the CT that requires the trainee to reimburse USAID for
training costs in the event of a non-returnee..without such term condition, there is no legal
basis for a recovery against the non-returnees.” In effect, John’s opinion is a determination
that the Mission has no legal basis for seeking a reimbursement of these training costs. John
goes on to list a number of recommendations related to this issue that is covered by point 5
below.”

RLA’s Detailed Response:

“There is no legal basis for recovering the $135,552 in training costs from the two non-returnee
participant trainees who signed Conditions of Training (CT), form designated AID 1381-6..
That is so because there is no term or condition in the CT that requires the trainee to
reimburse USAID for training costs in the event of a non-return. (For these purposes I have
looked at the CT for non-returnees Bold and Gantug.).

By way of discussion, the non-returnees agreed in the CT to “return to my country without
delay upon completion of my training and endeavor to utilize the training acquired under this
program for the benefit of my country.” There are no terms and conditions in the CT, however,
that expressly give USAID any remedies against non-returnees or others in the event of a non-
return or impose any penalties upon the non-returning participant. Without such an explicit
term or condition, there is no legal basis for a recovery against the non-returnees. There is no
basis to infer a legal remedy or penalty from the participant’s obligation to return. Documents
are always interpreted against the drafter and the drafter here is USAID. If USAID had wanted
a legal remedy or penalty, standard interpretation would dictate, USAID would have drafted the
CT accordingly. Moreover, funding for the participant training program is drawn from bilateral
grant funds, and there is no reason to assume that a non-returning participant had an
obligation to repay the grant funding when that obligation was not made express in the CT.

While, as mentioned, the funding for the training is drawn from a grant agreement entered into
by and between USAID and the Government of Mongolia, there are no provisions in the grant
agreement that would enable USAID to recover training costs from the Government of
Mongolia in the event of a non-return.”


Recommendation No. 5: We recommend that USAID/Mongolia develop and implement
procedures to seek reimbursement of training costs from non-returnees.




                                                                                              23
USAID/Mongolia’s Response:

“Mission accepts this recommendation and plans to incorporate this concern into a revised
Mission training order.”

RLA’s Detailed Response:

“I believe that USAID should consider changing the CT to add a provision making the
participant personally responsible and liable to USAID for the reimbursement of all training
costs incurred by USAID in the event that the participant does not fulfill his or her agreement to
return to Mongolia without delay upon completion of training and endeavor to utilize the
training for the benefit of Mongolia. This would give USAID a basis to request a refund from a
non-returnee and to refer the matter to the Justice Department for litigation against a non-
returnee. (Note that USAID can not commence litigation on behalf of the USG. That function
is reserved to the Justice Department.)

By way of discussion, this recommend change in the CT would be consistent with Agency
guidance. According to the Detailed Guide for Training (ADS 253 Mandatory Reference), the
“Conditions of Training must specify..Agreement to repay training costs if the participant, upon
returning home, refuses any employment that was planned.” My recommendation would make
the CT specify that the participant is personally responsible and liable to repay to USAID all
training costs incurred by USAID in the event that the participant, for any reason, fails to return
to Mongolia without delay upon completion of training and endeavor to utilize the training for
the benefit of Mongolia, or the participant for any reason fails to fulfill any other term and
condition of the CT.

I also believe that USAID should make a change(s) to every Stakeholder Compact. (I have
looked at several Stakeholder Compacts used for later participant training. No such Compact
was entered into by and among USAID, the participant and a Government of Mongolia agency
or party, and sometimes by and among a USAID-financed implementer and the participant. I
believe that every Compact should at least be signed by USAID, the participant and the
Government of Mongolia (in addition to, as appropriate, a USAID implementer), and that every
Compact should state that the participant and the Government of Mongolia are each
personally and severally responsible and liable to USAID to repay to USAID all training costs
incurred by USAID in the event that the participant, for any reason, fails to return to Mongolia
without delay upon completion of training and endeavor to utilize the training for the benefit of
Mongolia, or the participant for any reason fails to fulfill any other term and condition of the CT.
This would make both the participant and the GOM equally liable to USAID. (In the event of a
non-return, USAID could issue a bill of collection to the GOM for reimbursement of lost
training costs upon a non-return.).


Recommendation No. 6: We recommend that USAID/Mongolia update Mission Order
Number 501 to bring it into compliance with Chapter 253 of USAID’s Automated
Directives System.




                                                                                                  24
USAID/Mongolia’s Response:

“Mission accepts this recommendation and plans to revise its Mission training order. However,
we are awaiting completion of this world-wide audit—as well as the updated ADS that we
understand will flow from it—before doing this.”


Recommendation No. 7: We recommend that USAID/Mongolia implement a procedure
to ensure that all participant trainees sign the required Conditions of Training form.

USAID/Mongolia’s Response:

“Mission accepts this recommendation and will incorporate it into the new Mission order on
training. In any case, this has been implemented in our training programs since the visit of the
audit team.”

Attachments A and B present USAID/Mongolia’s Mission Director’s response and the Regional
Legal Advisor’s response respectively.

Please let us know if we could be of further assistance.

Attachments: as stated.

Clearance:   OFM: FAlmeida (in draft)
             RLA: J Power (In draft)

OFM/FMSD/Audit/Mongolia/Participant Training Audit Responses.doc
OFM/FMSD/CMRazo November 12, 2003




                                                                                              25
